No.
IN THE SUPREME COURT OF THE UNITED STATES
DONALD J. TRUMP, PRESIDENT OF THE UNITED
STATES, ET AL., APPELLANTS
v.
NATALIA USECHE, ET AL.
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the JURISDICTIONAL STATEMENT, via e-mail and first-class mail, postage prepaid, this
13th day of November 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 2,571
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d). I declare under penalty of perjury that the foregoing is true and correct. Executed
on November 13, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
November 13, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

SERVICE LIST: Trump, et al. v. Useche, et al.
DANIEL THURSTON GRANT
CARLTON FORBES
JEFFREY CAO
PATRICIO MARTINEZ LLOMPART
SHANKAR DURAISWAMY
COVINGTON & BURLING LLP
ONE CITYCENTER
850 TENTH STREET NW
WASHINGTON, DC 20001
202-662-5851
dgrant@cov.com
cforbes@cov.com
jcao@cov.com
msaunders@cov.com
pmartinezllompart@cov.com
sduraiswamy@cov.com
MORGAN E. LEWIS
COVERINGTON AND BURLING LLP
415 MISSION STREET
STE. 5400
SAN FRANCISCO, CA 94105
415-591-2533
melewis@cov.com
P. BENJAMIN DUKE
COVINGTON AND BURLING LLP
620 EIGHTH AVE.
NEW YORK, NY 10018
212-841-1072
pbduke@cov.com

